Case l:19-cv-01244-JKB Document 2 Filed 05/15/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
JORDAN POWELL,

*

Plaintiff

*

V

*

ALPHABET, INC., et al.,

*

Defendants

*

Civil Action No. JKB-19-1244

ORDER

The above-captioned Complaint was filed with the full filing fee, and therefore Plaintiff
bears the responsibility for effecting service of process on Defendants. Plaintiff may effectuate
service by presenting summons to the Clerk for signature and seal and then serving a copy of the
summons and Complaint on Defendants. While Plaintiff has provided summons to the Clerk, the
summons are not completed properly in that they fail to identify the Resident Agent of each of the
named corporate Defendants. Plaintiff will be given an opportunity to cure the deficiencies.
Pursuant to Federal Rules of Civil Procedure 4(c)(2), service of a summons and Complaint
may be effected by any person who is not a party and who is at least 18 years of age. Plaintiff is
reminded that under Rulee 4(/), the person effecting service of the summons and Complaint must
promptly notify the Court,1 through an affidavit, that he or she has served Defendants.
Service of process on corporations and associations may be made pursuant to Rule 4(h).
Plaintiff may contact the office of the State Department of Assessments and Taxation at (410) 767-

1
If Plaintiff does not use a private process server, and instead uses certified mail, restricted delivery, return
receipt requested, to make service, Plaintiff must file with the Clerk the United States Post Office acknowledgment as
proof of service.

Case l:19-cv-01244-JKB Document 2 Filed 05/15/19 Page 2 of 2

1330 or visit the website at https://egov.marvland.gov/BusinessExpress/EntitvSearch to obtain the
name and service address for the resident agent of a corporate defendant.
If there is no record that service was effectuated on Defendants, Plaintiff risks dismissal of
this case. Pursuant to Rule 4(m) and Local Rule 103.8.a, if a party demanding affirmative relief
has not effectuated service of process within 90 days of filing the Complaint, the Court may enter
an order asking the party to show cause why the claims should not be dismissed. If the party fails
to show cause within the time as set by the Court, the Complaint shall be dismissed without
prejudice.
Accordingly, it is by the United States District Court for the District of Maryland, hereby
ORDERED:
1. Plaintiff SHALL SUBMIT corrected summons to the Clerk within 21 days of the
date of this Order and the Clerk SHALL issue summons and return summons to
Plaintiff. If service copies of the Complaint were provided, the Clerk SHALL
RETURN them to the Plaintiff; and
2. The Clerk SHALL SEND a copy of this Order to Plaintiff.

Dated this 15th day of May, 2019.
FOR THE COURT:

/s/
James K. Bredar
Chief Judge

2

Case l:19-cv-01244-JKB Document 3 Filed 05/31/19 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
JORDAN POWELL,

*

Plaintiff

*

v

*

ALPHABET, INC., et al,

*

FILED
U.S. DISTRICT COURT
DISTRICT OP MARYLAND

zan MAY 31 All: 32
clerk-s erne-'
AT GR: fNBrr.

Civil Action No. JKB-19-1244

*
***

Defendants

COMPLIANCE AND JURISDICTION

1.

In response to the Order dated May 15, 2019, Plaintiff submits corrected summons to the

Clerk for signature and seal.
2.
i

Plaintiff also seeks to provide additional clarity regarding jurisdiction, in prelim of

response by defendants, considering the limited record at this stage alongside the heightened
complexity of warrant for jurisdiction over each named defendant. While Google LLC is the only
defendant registered to do business in the State of Maryland and thereby the only defendant
listed in the Maryland State Department of Assessments and Taxation registry, mere registration
is not Plaintiff’s basis for jurisdiction over Google LLC because Maryland rejects general
jurisdiction by consent based on state registration statutes.
3.

In accordance with law, Plaintiff intends to serve each defendant in California pursuant to

Federal Rule of Civil Procedure 4(h)(B) and Maryland District Court Rule of Civil Procedure
3-124. Pursuant to court Order, Plaintiff has now also identified the Agent for Service of Process
for Alphabet Inc., Google LLC, and YouTube LLC as registered by the California Secretary of
State contained in the 1505 certificates for each defendant’s Agent for Service of Process; noting

!

Case l:19-cv-01244-JKB Document 3 Filed 05/31/19 Page 2 of 4

each defendant maintains the same Agent for Service of Process, identified under the same
certificate, at the same address. Plaintiff has also identified the Registered Agent of Google LLC
as listed in the Maryland State Department of Assessments and Taxation registry, and affixed
such identity to the corrected summons for Google LLC in order to ensure complete compliance
with court Order.
4.

As to jurisdiction over YouTube LLC, the defendant has availed itself of the forum State

of Maryland by entering into contract with Plaintiff here, providing services under contract here,
and triggering the resultant damages to Plaintiff by breaching that contract here as alleged.
Therefore, this court has specific jurisdiction over the entire matter especially concerning
Antitrust via the express grant of jurisdiction to this court by the United States Congress such
that “[a]ny suit, action, or proceeding under the antitrust laws against a corporation may be
brought not only in the judicial district whereof it is an inhabitant, but also in any district wherein
it mav be found or transacts business: and all process in such cases may be served in the district
of which it is an inhabitant, or wherever it may be found.” 15 U.S.C. § 22.
5.

As to jurisdiction over Google LLC, the defendant transacts business here, as noted in the

Complaint and incorporated by reference here. Furthermore, Plaintiff’s contract with YouTube
contains an uncontested California choice of law provision. Therefore, California Corporations
Code § 17703.04 governing alter ego liability applies here. Plaintiff attests that signing up with
YouTube automatically created a Google account as well. Emails from YouTube were sent from
the google.com domain, and when Plaintiff’s YouTube account and services were terminated
Plaintiff’s Google account and services were terminated simultaneously. Bookkeeping for
Google LLC and YouTube are recorded together as singular segment, as seen in Alphabet’s 2018
2

Case l:19-cv-01244-JKB Document 3 Filed 05/31/19 Page 3 of 4

10-K filed with the Securities Exchange Commission. Google LLC is thereby the alter ego of
YouTube LLC.
“A party seeking to establish jurisdiction over a person or entity can either: (1)
6.
show each defendant’s sufficient, direct contacts with the forum state, or (2) use the alter
ffpo theory to “extend personal jurisdiction to a foreign parent or subsidiary when, in
actuality, the foreign entity is not really separate from its domestic affiliate.”” United
States Ninth Circuit, IN RE: Boon Global Limited, 18-71347, Decided: May 03, 2019, at
8 citing Ranzav. Nike, Inc., 793 F.3d 1059,1073 (9th Cir. 2015).
7.

Finally, as to this court’s jurisdiction over Alphabet Inc., the defendant Alphabet is

likewise an alter ego of Google LLC and similarly subject to § 17703.04 liability because
Alphabet Inc. and Google LLC maintain the same corporate headquarters, the same Agent for
Service of Process, and shareholders of Google Inc. became shareholders of Alphabet Inc. and
the alter ego Google LLC became the front facing subsidiary of what is truly the same company.
8.

Furthermore, 99.6% of Alphabet Inc. revenue is derived from the Google LLC segment

of its 2018 10-K (Note: the Google LLC segment includes YouTube LLC and financial reporting
for both companies are presented together.) The registration statement also included “[w]e
consent to the incorporation by reference in the following Registration Statements: (1)
Registration Statement (Form S-8 No. 333-207254) pertaining to the Google Inc. 2004 Stock
Plan, Alphabet Inc. 2012 Stock Plan ....”
9.

This showing resonates of the fact that to this date Alphabet Inc. remains the alter ego of

its former existence as Google Inc., now only masked by the appearance of Google LLC which
commingles operations, accounting, and leadership with YouTube LLC. The many are in fact the
one, and so all are subject to the jurisdiction of this court jointly and severally as intended by the
legislative wisdom of California Corporations Code § 17703.04 and 15 United States Code § 22.

3

Case l:19-cv-01244-JKB Document 3 Filed 05/31/19 Page 4 of 4

10.

Hereby, Plaintiff respectfully clarifies the jurisdictional authority of this court over all

named defendants and respectfully requests the signature and seal of the Clerk of Court upon
each corrected summons for the effectuation of service of process upon each named defendant to
commence the undertaking of this highly meritorious lawsuit.

Dated this 30th Day of May, 2019

Respectfully submitted,

Jordan Powell
6441 Meadowlark Drive
Dunkirk, MD 20754
jordan.ttpowell@gmail.com
202.503.5284
Fax: N/A

4

